  August 20, 2003




Financial Management

Corps of Engineers Equipment
Reporting on Financial Statements
for FY 2002
(D-2003-123)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
IG DoD                Inspector General of the Department of Defense
MARKS                 Modern Army Record Keeping System
PP&E                  Property, Plant, and Equipment
USACE                 U.S. Army Corps of Engineers
          Office of the Inspector General of the Department of Defense
Report No. D-2003-123                                                      August 20, 2003
   (Project No. D2003FJ-0050)


                  Corps of Engineers Equipment Reporting on
                      Financial Statements for FY 2002

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers civil service
and uniformed officers responsible for financial reporting of equipment should read this
report. It discusses the management controls that are necessary to support the financial
reporting of equipment on financial statements.

Background. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994. The
Inspector General of the Department of Defense is required to audit the annual financial
statements of organizations within the Department of Defense. This report is a result of
work performed in support of the audit of the Corps of Engineers FY 2002 Financial
Statements.

For FY 2002, Property, Plant, and Equipment was the most significant asset reported by
the U.S. Army Corps of Engineers in its financial statements. Equipment comprised
$650.8 million of the Property, Plant, and Equipment that the U.S. Army Corps of
Engineers reported. Equipment generally includes assets with an acquisition value of
$25,000 or more. It does not include land, buildings, structures, and construction-in-
progress. The U.S. Army Corps of Engineers employs several different types of
equipment to maintain its civil works operations such as forklifts, trucks, cranes, barges,
and boats.

Results. The data the U.S. Army Corps of Engineers provided for us to use in sampling
and testing the amount it reported for equipment on the FY 2002 financial statements did
not include $49.3 million of equipment assets. Additionally, the U.S. Army Corps of
Engineers did not maintain adequate documentation to support all of the values that were
listed for the items of equipment that we reviewed. Although we were able to verify the
existence and completeness of all of the equipment that we sampled, the data and
valuation problems resulted in our conclusion that the value of equipment the U.S. Army
Corps of Engineers reported on the FY 2002 financial statements was not sufficiently
reliable. Unless corrective actions are taken, the value of equipment will continue to be
unreliable for future financial reporting periods. Implementing the recommendations
would help prepare the U.S. Army Corps of Engineers for future audits and ensure the
correct maintenance of equipment asset files. (See the Finding section of the report for
the detailed recommendations.)

Management Comments. The U.S. Army Corps of Engineers concurred with the
finding and recommendations. The Corps of Engineers stated that it will at frequent
intervals review and monitor the readiness and availability of the complete line item
universe through management tools such as Command inspections. Additionally, the
Corps of Engineers will issue a letter that reiterates policy for document retention. The
letter will also reinforce the reconciliation between the financial records and property
records. See the Finding section for a summary of management comments and the
Management Comments section for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                             i

Background                                   1

Objectives                                   2

Finding
     Equipment Financial Reporting           3

Appendixes
     A. Scope and Methodology
         Management Control Program Review   11
         Prior Coverage                      11
     B. Report Distribution                  12


Management Comments
     U.S. Army Corps of Engineers            15
Background
    The audit was performed in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Inspector General of the Department of Defense (IG DoD), is required to audit the
    annual financial statements of the Department of Defense. This report is a result
    of work performed in support of the Audit of the Corps of Engineers FY 2002
    Financial Statements.

    The U.S. Army Corps of Engineers (USACE), Civil Works, reports General
    Property, Plant, and Equipment (PP&E) as a line item on the financial statements.
    For FY 2002, PP&E was the most significant asset category on the USACE
    financial statements, reported at a net value of $36.9 billion. Equipment in the
    USACE principal statements in FY 2002 represents $650.8 million of the PP&E
    reported on the statement.

    The USACE Civil Works mission falls into four broad areas: water infrastructure,
    environmental management and restoration, response to natural and manmade
    disasters, and engineering and technical services to the Army, DoD, and other
    agencies. USACE uses several different types of equipment assets to perform its
    mission such as forklifts, trucks, cranes, barges, and boats. The equipment
    portion of PP&E generally includes assets with an acquisition value of $25,000 or
    more. It does not include land, buildings, structures, and construction-in-
    progress.

    The DoD Financial Management Regulation, Volume 4, chapter 6, August 2000,
    defines General PP&E as tangible assets that:

       •   have a useful life of two years or more,

       •   are not intended for sale,
       •   are acquired or constructed with the intention of being used by the entity,
           and

       •   have an initial acquisition cost, book value, or an estimated fair market
           value that equals or exceeds the DoD capital asset threshold.

    The regulation requires that supporting documentation for the assets be
    maintained by the owner in a readily available location during the applicable
    retention period. This permits the validation of information pertaining to the
    asset, including acquisition cost, acquisition date, and cost of improvements.




                                         1
Objectives
    Our overall audit objective was to determine the reliability of the USACE, Civil
    Works, equipment as presented in the General PP&E line item in the FY 2002
    Financial Statements. We also reviewed the management control program as it
    related to the overall objective. See appendix A for a discussion of the scope and
    methodology, and our review of the management control program.




                                         2
           Equipment Financial Reporting
           USACE did not produce adequate information for an audit of equipment.
           Further, some of the documentation needed had not been retained or did
           not support equipment assets reported in the USACE FY 2002 Civil
           Works financial statements. The specific deficiencies were:

               •   the data provided supported $49.3 million less equipment than that
                   reported in the FY 2002 financial statements, and

               •   supporting documentation for a projected $47.5 million of
                   equipment assets was either unavailable or failed to match
                   information in the automated data system.

           These deficiencies were the result of improper methods used to collect the
           information needed for the audit. Additionally, USACE had not
           developed controls to ensure personnel adhered to existing policies and
           procedures for retaining documentation and valuing assets in the absence
           of historical data. During tests for physical verification and completeness
           of records, the audit showed that the USACE properly recorded and
           controlled the equipment assets we statistically sampled and reviewed.
           However, as a result of the weaknesses in the compilation of the data and
           the shortfalls in valuation documentation, we were unable to validate
           $49.3 million of the USACE equipment reported on the FY 2002 financial
           statements, and identified an additional projected $47.5 million that was
           not accurately supported. We concluded that the equipment value USACE
           reported on its FY 2002 financial statements is unreliable and future
           reported amounts will be unreliable until these weaknesses are corrected.


Equipment Universe
    We determined that it would be necessary to use statistical sampling procedures
    to test equipment because of the large number of equipment assets. To use
    statistical sampling, a database or universe including all equipment assets
    reported for FY 2002 was needed. From this database or universe, the
    statisticians selected a (statistical) sample of equipment assets for our review.
    The results of our review of selected equipment assets (the sample) would later be
    used to calculate projections, which represent the overall results that are
    statistically probable, had we reviewed every equipment asset.

    At the beginning of the audit, USACE provided two databases (the universe) in
    support of the equipment it reported for FY 2002. USACE indicated that the
    universe of equipment it provided to us included all capital equipment assets
    recorded in the Corps of Engineers Financial Management System (CEFMS).

    Our review of the universe data identified a difference of approximately
    $49.3 million between the equipment universe provided to us ($601.5 million)
    and the amount reflected on the USACE FY 2002 financial statements
    ($650.8 million). It was not until January 16, 2003, that USACE was able to
                                        3
    identify several errors it made when providing us the initial universe data.
    USACE included non-equipment assets in the universe and did not include all
    capitalized equipment assets that should have been part of the universe.

    We concluded that USACE management was not prepared to provide a universe
    for the equipment line item at the start of the audit. To properly support an audit
    of equipment, USACE needed to establish all the procedures necessary to ensure
    the readiness and availability of the complete equipment line item universe prior
    to the start of audit.


Supporting Documentation
    USACE could not provide documentation to support all of the equipment values
    that we reviewed. We used a statistical sample to select equipment for review and
    projected the number and value of equipment assets that were not adequately
    supported.

    From the USACE universe of equipment provided to us, we statistically selected
    788 equipment assets at 14 USACE district offices for review. See Appendix A
    for our statistical sampling plan and results.

    The following table details the sites visited and number of equipment assets
    reviewed at each site.

                              Districts Selected for Review

         USACE District Office                Number of Assets Reviewed
         Buffalo                                         20
         Huntington                                      20
         Little Rock                                     20
         Louisville                                     100
         Memphis                                        140
         Mobile                                          20
         Nashville                                       20
         New Orleans                                    120
         Portland                                       100
         St. Louis                                       40
         St. Paul                                        40
         USACE HQ                                         8
         Vicksburg                                      120
         Waterways                                       20

         14 Districts                                      788




                                         4
Based on results of the sample, we concluded that the USACE offices did not
always have documentation to support values recorded for equipment. We
projected that the statistical midpoint of equipment values that were not
adequately supported was $47.5 million.

Document Retention. The primary reason for the unsupported values was that
the USACE district offices did not maintain documentation for a long enough
time period. USACE offices did not consistently maintain the documentation
needed to support the assets’ value over the assets’ entire useful (or depreciable)
life. We projected that 429 of 6,017 assets in the universe would have had no
supporting documents had we examined all of them. Examples of situations with
no supporting documentation follow.

   •   We reviewed CEFMS records that described a crane barge that the
       Vicksburg District purchased for $3,502,297 on November 1, 1995. The
       barge’s net book value reported on the financial statements was
       $2,896,657. The District did not maintain supporting documentation for
       the stated value.

   •   Our sample also included a cargo barge located at the St. Paul District that
       was purchased November 1, 1987, for $128,651. At the end of FY 2002,
       its net book value reported as part of equipment on the financial
       statements, was $80,675. Personnel at the St. Paul District office could
       not provide any documentation supporting the value of the barge.

   •    The Vicksburg sample included a dump truck, that the automated system
       showed was purchased on June 25, 2002, for $78,467. Its net book value
       was reported as $76,833. The Vicksburg District did not have supporting
       documentation for the value even though the asset was less than a year
       old.

The USACE Districts responsible for these assets and others with no historical
supporting documentation needed to revalue them and retain the supporting
documentation.

System Records. In a significant number of cases, the supporting documentation
that was located and provided by USACE district offices did not match the
records in CEFMS. We projected that there would be 162 equipment assets out of
6,017 in the universe for which hard copy documents would not match CEFMS
records. The errors occurred for a number of reasons, including inappropriately
long lag periods between receipt of an asset and entry into CEFMS, and incorrect
acquisition prices recorded in CEFMS.

The following examples illustrate mismatches between CEFMS information and
supporting documentation.

   •   In preparation for the audit, the St Louis District reviewed its files on
       items in our sample. The review included a small boat that was purchased
       April 30, 1993, for $546,586. The review of the hard copy files identified
       $420,120 of additional costs for the boat that should have been


                                     5
           capitalized. District personnel stated that CEFMS records would be
           corrected for FY 2003 reporting.

       •   At the Louisville District, CEFMS records indicated a towboat was
           purchased January 20, 1997, for $607,426. Our review of the original
           documents showed that the boat was actually purchased 20 months earlier
           on April 25, 1995. District personnel agreed to change the acquisition
           date in CEFMS, which resulted in an adjustment of $40,544 that decreased
           the net value of the boat.

       •   In the Memphis District we reviewed a laser plotter with a net book value
           of $11,730, which we identified as an overstatement. A review of the files
           showed that the acquisition price of $31,081 was not fully supported, nor
           was the date in CEFMS supported. The CEFMS date of June 1, 1993, was
           21 months prior to the date listed on the supporting documentation.
           Additionally, the depreciation was calculated over an incorrect time
           period. The asset should have been fully depreciated as of April 2002.

    In all of these cases, CEFMS should accurately reflect hard copy historical
    documentation.


Implementing Policies
    As part of the audit we evaluated policies that affect management of
    documentation that supports equipment values. We concluded that existing DoD
    policies and additional interim policies were available to guide USACE offices in
    the retention of sufficient documentation. However, the USACE district offices
    were not following the policies and were not retaining documentation to support
    equipment assets for their entire useful life.

    Existing DoD Policy. DoD Financial Management Regulation, Volume 4,
    chapter 6, addresses document retention, as do several other policies. Army
    Regulation 25-400-2, the “Modern Army Record Keeping System (MARKS)”
    dated October 1, 2001, is used by USACE to properly manage information, from
    its creation through final disposition, according to Federal laws and Army record-
    keeping requirements. This regulation furnishes the only legal authority for
    destroying nonpermanent Army information and provides life cycle management
    instructions for the systematic identification, maintenance, storage, retirement,
    and destruction of Army information recorded on any medium (paper,
    microforms, electronic, or any other). The current MARKS requirement (also
    cited in Engineer Regulation 37-1-29, dated November 30, 2002) for maintaining
    documentation for capitalized assets is 10 years after the disposal of the asset.

    Interim Policy. In addition to existing DoD policies, USACE Headquarters
    issued interim guidance in the form of memorandums dated May 1996, and
    January 1999, detailing requirements for maintaining documents for revolving
    fund assets “until the asset is retired or otherwise disposed of.” The 1999 memo
    extended the retention period to three years after the end of the fiscal year in
    which the asset is disposed of. It also provided guidance for determining the

                                        6
     value of assets acquired before June 1, 1996, for which historical cost
     documentation was not available.
     According to the memorandum, acceptable procedures for valuing assets for
     which historical cost documentation was no longer available included:
             • current working estimates prepared for the acquisition,
             • appropriation or other Congressional information;
             • Plant Replacement and Improvement Program documentation;
             • development of an estimate based on the cost of similar assets at the
                 time of original acquisition; and
             • current cost of similar assets, discounted for inflation since the time of
                 acquisition.
     There were several reasons why the policy was not effectively followed. The
     principal reasons were that USACE Headquarters had not developed controls to
     measure and ensure the implementation of existing policy, and management had
     not tested adherence to the policies and procedures that the divisions and districts
     should have been following.

     The USACE needed to develop control procedures that ensured the existing
     policies were effectively implemented. The control procedures should include
     provisions to value and document equipment for which no historical
     documentation exists, and use data from existing documents to correct the data in
     the automated information system in those cases where incorrect information has
     been recorded.


Results of Existence Tests of Equipment
     Our test of the existence of USACE equipment assets showed that all 788 of the
     items we selected for review at the 14 Districts and Divisions were recorded on
     USACE records, and that those assets existed at USACE locations we visited.
     While performing our physical verification fieldwork, we judgmentally selected
     an additional 223 equipment assets used to perform a completeness test. Our
     review of the completeness of the USACE records showed that the 223 equipment
     assets in the field were recorded in the records. We found no errors during those
     tests.


Conclusion
     Although USACE had properly recorded and controlled the reviewed equipment
     assets for which it has responsibility, USACE inability to produce data needed for
     our audit, along with the lack of adequate supporting documentation, resulted in
     our conclusion that the equipment value on the FY 2002 financial statements is
     not sufficiently reliable. Future reported amounts will also be unreliable unless
     these issues are resolved. In the future, it is essential that USACE be prepared to
     provide auditors with a complete database, or universe, that fully supports the
                                          7
    amount shown as equipment in its financial statements. USACE policy
    concerning supporting documentation retention should be fully implemented and
    equipment for which no supporting documentation exists should be valued and
    documented. Additionally, automated information system data should be
    corrected to accurately reflect the data in the hard copy documentation.


Recommendations and Management Comments
    We recommend that the Commander, U.S. Army Corps of Engineers, direct
    the Director of Civil Works to:

           1. Establish procedures necessary to ensure the readiness and
           availability of the complete equipment line item universe prior to the
           start of audit.

           USACE Comments. The Corps of Engineers concurred. The Corps of
           Engineers will continually review and monitor the readiness and
           availability of the complete line item universe through management tools
           such as Command inspections.

           2. Finalize interim policy and fully implement existing DoD and
           U.S. Army Corps of Engineers policy and value and document
           equipment for which no historical documentation exists, and correct
           automated information system data to reflect correct data from hard
           copies.

           USACE Comments. The U.S. Army Corps of Engineers concurred. The
           Corps of Engineers will issue a letter that reiterates policy for document
           retention. The letter will also reinforce the reconciliation between the
           financial records and property records.




                                        8
Appendix A. Scope and Methodology
           We reviewed information related to the USACE financial statement reporting of
           equipment assets valued at $650,783,394 for FY 2002. We used a statistical
           sample of capital assets (generally $25,000 or greater) recorded in the CEFMS
           database. Our sample included 788 items. We also made inquires of personnel
           from the USACE Headquarters and 14 district offices.

           We performed this audit from October 2002 through March 2003 in accordance
           with generally accepted government auditing standards.

           At the start of the audit, the USACE provided us a database of the capital
           equipment assets recorded in CEFMS. We decided to statistically select a sample
           of assets for review from the population of 6,017 assets representing
           $571,279,949 (or 95 percent) of capital equipment recorded in CEFMS for
           FY 2002. We did not review an additional database of 828 assets valued at
           $30,250,741 consisting of mostly USACE computer system assets, due to time
           constraints. ($571.3 million + $30.2 million = $601.5 million)

           A two-stage sample design was developed and used. At the first stage, Field
           Operating Activity was selected as a sampling point and its selection was based
           on the reported dollar value using a probability proportional to size with
           replacement methodology. At the second stage, a stratified design was used and
           two strata were selected. The first stratum was a census of items with net values
           greater than or equal to $2 million. The second stratum consisted of the remainder
           of non-census items. Items in the second stratum were chosen by simple random
           selection without replacement.

           The determination of an appropriate sample size was based on information from
           prior audit work and professional judgment. The statistical selection resulted in a
           sample of 788 assets located at 14 USACE offices.

           Our statisticians calculated the following projections for the $571,279,949 of
           capital equipment the USACE reported for FY 2002. The projections were
           calculated using information we supplied on the equipment assets that we
           determined had values that were not adequately supported.

                    Table 1. Projection of the Value of Equipment Assets
                                 Not Adequately Supported

                                               Lower Bound         Point Estimate           Upper Bound
           Not Adequately Supported             $12,791,945         $47,489,483              $82,187,021
           No Documentation                     $ 3,852,866         $29,932,583              $56,012,299
           System Inaccuracy                   $ 2,913,274∗         $17,556,901              $38,202,477




∗
    The lower bound is the actual dollar error in the sample and is not a statistically projected amount.

                                                         9
We are 95 percent confident the total of dollars not adequately supported is
between $12,791,945 and $82,187,021. We statistically projected the dollars not
adequately supported into two categories: no documentation and system
inaccuracy. We are 95 percent confident the total of no documentation dollars is
between $3,852,866 and $56,012,299. We are 95 percent confident the total of
system inaccuracy dollars is between $2,913,274 (actual dollar error) and
$38,202,477.

We statistically projected to the population of 6,017 items the number of errors
for the “not adequately supported”, “no documentation” and “system inaccuracy”
categories. Since the sample design for this project was initially developed for
variable (dollar) estimates, the relative precision associated with the attribute
projections at the 95% confidence level is high.

        Table 2. Projection of the Number of Equipment Assets
                          Not Adequately Supported
                             Lower Bound     Point Estimate       Upper Bound
Not Adequately Supported         213              591                 968
No Documentation                 103              429                 755
System Inaccuracy                 65               162                260


We are 95 percent confident the number of equipment assets not supported is
between 231 and 968. We are 95 percent confident the number of equipment
assets with no documentation is between 103 and 755. We are 95 percent
confident the number of assets inaccurately reflected in the system is between 65
and 260 equipment assets.

Use of Computer-Processed Data. We relied on computer-processed data from
CEFMS to determine the districts to be visited and the audit sample selections.
We did not test the general and application controls of the system and we
considered this in determining our sample selection population. We performed
other tests on the data to determine the accuracy and reliability of the Equipment
account balances. We did not find errors that would preclude the use of the
computer-processed data to meet the audit objectives or that would change the
conclusions in this audit report.

Use of Technical Assistance. We received assistance from the Quantitative
Methods Division in the Office of the Inspector General of the Department of
Defense. Specifically, we had help determining our statistical sampling plan and
also in the statistical analysis and projection of our audit results.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the financial management high-risk area.




                                    10
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USACE management controls over the financial reporting of
    equipment. Specifically, we reviewed USACE management controls over data
    gathering to provide a complete universe and efficiency in maintaining supporting
    documentation for equipment assets records and files. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for USACE as defined by DoD Instruction 5010.40. USACE
    management controls over the financial reporting of equipment were not adequate
    to ensure that a complete universe was provided, and that equipment files were
    properly maintained to include historical documentation for the life of an asset.
    Recommendations in this report, if implemented, will correct the identified
    weaknesses and could result in reliable financial statement reporting for
    equipment. A copy of the report will be provided to the senior official
    responsible for management controls in the USACE.

    Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
    did not identify financial management nor specifically equipment valuation as an
    assessable unit, and therefore, did not identify or report the material management
    control weakness identified during the audit.


Prior Coverage
    During the last 5 years, the Army Audit Agency published one report on the
    USACE, Civil Works - equipment. Army Audit reports can be accessed at
    https://www.aaa.army.mil/reports/.htm, which is accessible on the extranet to
    military domains and GAO only.


Army
    AAA Report No. AA-02-142, “Fiscal Year 2001 Financial Statements US Army
    Corps of Engineers, Civil Works,” February 08, 2002




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Organizations
Office of Management and Budget
U.S. General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          13
U.S. Army Corps of Engineers Comments
                                                                    Final Report
                                                                     Reference




                                                                    * Omitted




*Omitted because of length. Copies will be provided upon request.

                                                 15
16
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
John K. Issel
Walter J. Carney
Eric T. Thacker
Melanie S. Schmechel
Frank C. Sonsini
Lusk F. Penn
